<html>
<title> - A REVIEW OF THE 2017 TRAFFICKING IN PERSONS REPORT</title>
<body><pre>[Senate Hearing 115-703]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 115-703

                         A REVIEW OF THE 2017 
                     TRAFFICKING IN PERSONS REPORT

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 13, 2017

                               __________



       Printed for the use of the Committee on Foreign Relations

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                   Available via the World Wide Web:
                         http://www.govinfo.gov

                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-116 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------

                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD, YOUNG, Indiana                 CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)  
                              

                         C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator from Tennessee....................     1


Cardin, Hon. Benjamin L., U.S. Senator from Maryland.............     2


Sullivan, Hon. John J., Deputy Secretary of State, U.S. 
  Department of State, Washington, DC............................     5

    Prepared statement...........................................     7


Coppedge, Hon. Susan, Ambassador-at-Large, Office to Monitor and 
  Combat Trafficking in Persons, U.S. Department of State, 
  Washington, DC.................................................     8




              Additional Material Submitted for the Record

Reuters--Exclusive: Overruling dipomats, U.S. to drop Iraq, 
  Myanmar from child soldiers' list, June 23, 2017...............    25


Responses to Additional Questions for the Record Submitted to 
  Hon, John J. Sullivan by Senator Marco Rubio...................    26


Response to an Additional Question for the Record Submitted to 
  Hon. John J. Sullivan by Senator Robert Menendez...............    27


Responses to Additional Questions for the Record Submitted to 
  Hon. John J. Sullivan and Hon. Susan Coppedge by Senator Tim 
  Kaine..........................................................    27


Responses to Additional Questions for the Record Submitted to 
  Hon. Susan Coppedge by Senator Marco Rubio.....................    28


Responses to Additional Questions for the Record Submitted to 
  Hon. Susan Coppedge by Senator Robert Menendez.................    31



                             (iii)        

 
                    A REVIEW OF THE 2017 TRAFFICKING
                           IN PERSONS REPORT

                              ----------                              


                        THURSDAY, JULY 13, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Gardner, Young, 
Cardin, Menendez, Kaine, and Booker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order.
    This morning, we will continue our oversight efforts with 
regard to the 2017 Trafficking in Persons Report. I want to 
thank Senator Cardin and members of the committee for their 
leadership and engagement in combating this affront to human 
dignity and the rule of law.
    This committee has conducted extensive oversight on this 
issue. We have instituted annual briefings for members of the 
committee with the Office of Trafficking in Persons Ambassador 
and regional bureaus at the State Department prior to the 
release of the annual Trafficking in Persons Report.
    We ask every nominee before this committee to commit to 
help lead the fight against modern slavery. This oversight has 
been noted at the State Department and in our embassies.
    We appreciate that the Deputy Secretary of State 
volunteered to lead the administration's testimony today. The 
Secretary spent about 45 minutes with Senator Cardin and I 
before this meeting, and we thank him very much for his 
openness and the way that he is serving. We look forward to 
having an outstanding relationship with him.
    We thank you for being here today.
    I know the Secretary of State wanted to be here. He had an 
unplanned trip to the Middle East.
    And we thank you for sitting in, in his stead. We thank you 
for the elevation of this issue at the State Department and, 
again, for your being here.
    The deputy's attendance demonstrates the State Department's 
interest in the stability of this report after Ambassador 
Coppedge finishes her assignment.
    We also want to welcome Ambassador Susan Coppedge, who 
agreed to remain in her post to ensure the continuity with the 
2017 report. We appreciate her leadership and service.
    I have to say that I think you have been outstanding. I 
think there are people around the world that have benefited 
greatly from your service. Certainly, we have. And I cannot 
thank you enough for your leadership, for your dedication to 
this issue. And I hope our paths cross many, many times in the 
future.
    We also appreciate that Secretary of State Tillerson and 
Ivanka Trump personally and passionately led the rollout of the 
2017 report, flanked by TIP Heroes in a packed room. It was a 
great event, and I was glad to be there.
    I would like to begin by commending Ambassador Coppedge at 
the State Department for the focus of this year's report on the 
responsibility of governments to criminalize human trafficking 
and hold offenders accountable. Human trafficking largely 
exploits the vulnerable for profit. There is no greater 
deterrent than to make it clear that perpetrators and those who 
collaborate with them will pay a heavy price for these crimes.
    This year's report contains specific elements that our 
country and other countries can use to prosecute the crime of 
modern slavery. I hope that, in compiling this year's report, 
you will continue to highlight examples of progress and 
prosecution, and scrutinize where corruption and lack of 
progress are failing victims of modern slavery.
    The 2015 report and how it was perceived did real damage to 
this issue, and we are still recovering from that. We all need 
to continue to reinforce trust in the process of developing the 
report and tier rankings. We, for our part, are careful not to 
politicize the oversight process, and that remains important.
    I do believe that, beginning last year and again this year, 
the State Department has taken the integrity of the report 
seriously, and we thank you very much for that.
    Senator Cardin and I were talking. There may be questions 
about some of the outcomes, but I think one of the things that 
absolutely everyone feels is there was no politicization. There 
may have been differences in judgment, but we appreciate the 
integrity with which this was put together.
    Finally, I would like to thank Secretary Tillerson for 
announcing at the Trafficking in Persons rollout that the State 
Department is proceeding with the $1.5 billion End Modern 
Slavery Initiative that Senator Menendez and I first presented 
to this committee in 2015. This is a critical step in the 
effort to end modern slavery globally.
    To quote British Prime Minister Theresa May, ``Victims will 
only find freedom if we cultivate a radically new global and 
coordinated approach to defeat this vile crime.''
    Thank you both for being here.
    And I will turn to my friend, Senator Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Thank you, Mr. Chairman.
    Before I comment on today's hearing on the Trafficking in 
Persons Report, let me just share with our colleagues that the 
chairman and I have been very focused on trying to get the 
Russian sanction bill passed in the United States House of 
Representatives.
    I want to thank the chairman. We have expressed as much 
flexibility as we possibly can to our colleagues in the House, 
to deal with their particular procedural issue. We do not think 
that is a problem. And we want to make sure that this bill is 
passed as quickly as possible in the House, and in the form 
that it passed the United States Senate.
    I want to thank the chairman for his cooperation. We have 
been working without any difference here, in trying to get this 
bill passed in the House.
    It passed by 98-2. I reminded Secretary Sullivan that in 
that bill is the requirement for review before any sanction 
relief is given. And I particularly mention that because of 
press reports concerning the compounds in New York and 
Maryland, and we consider that a really major affront to 
Congress, if action was taken on that without working with the 
Members of Congress.
    Let me thank you very much, Mr. Chairman, for this hearing. 
This hearing, as we will review the most recent Trafficking in 
Persons Report. As you pointed out, this is one of the great 
moral challenges of our time. It is modern-day slavery.
    Just last week, I was not present, but another hat I wear 
is as the ranking member of the Helsinki Commission. We had our 
annual meeting of the OSCE Parliamentary Assembly in Minsk, 
Belarus, and our delegation was very much actively engaged on 
this issue of trafficking.
    The U.S. leadership on this globally has made a huge 
difference. It was the leadership of the United States Congress 
and the United States Government that has raised this issue to 
the international community, making it clear we will not 
tolerate trafficking in persons and that we will take all 
necessary steps to end this tragedy.
    It distorts labor markets. It destroys people. It erodes 
communities. It undermines stability and rule of law, and is 
fueled by corruption, greed, and violence.
    We will continue, and our Trafficking in Persons Report, to 
me, is the gold standard for what is used to have all countries 
do better.
    I have mentioned previously, when foreign guests come into 
my office, whether they are heads of state or Foreign 
Ministers, I have the Trafficking in Persons Report in my 
office and will review that country's need for additional 
progress in order to deal with this.
    So it was with great anticipation that we had this hearing, 
and looked forward to the 2017 report.
    Ms. Coppedge, I want to thank you for your extraordinary 
leadership on this issue. We know that you will be doing other 
things.
    I want to, first and foremost, acknowledge that the 2017 
report represents the professional dedication that we expect to 
see in the Trafficking in Persons Report. And I am very pleased 
with the manner in which this report was handled, and the way 
that decisions were made.
    It does not mean that I agree with all the decisions that 
were made.
    I think, in regard to China, I applaud you. I think that 
was absolutely the right decision, and I know that it came with 
some political and diplomatic challenges. It was the right 
thing to do, and I applaud you on it.
    I am going to talk a little bit about Malaysia, because I 
am concerned by what happened in Malaysia. It was upgraded to 
Tier 2. That was one of the major countries that we were 
concerned about, the manner in which it was handled in 2015, 
because of the apparent connections between the decision made 
in the TIP Report and the TPP negotiations that were taking 
place. Senator Menendez was one of the principal leaders. He 
had legislation on this, et cetera. And it seemed to be a very 
political decision that was made in 2015.
    Malaysia is home to more than 2 million documented migrant 
laborers, and millions more undocumented laborers, many of whom 
continue to face debt bondage and forced labor. Yet, Malaysia 
was only able to identify a little over 1,500 trafficking 
victims. That is all they could identify.
    Moreover, Malaysia has yet to prosecute any Malaysian 
officials for their involvement in the Rohingya smuggling rings 
and the mass graves found on the Malaysia-Thai border in 2015, 
an incredible tragedy in which there has been virtually no 
progress made in resolving that issue. During the 2017 
reporting period, Malaysian authorities released 12 police 
officers suspected of trafficking, again raising questions as 
to the country's commitment.
    I know that the numbers are higher on the numbers of cases 
that have been brought. But as far as concrete results, I have 
not seen it. And I would be interested as to why the upgrade 
was made.
    I am also happy that Secretary Sullivan is here, because I 
am concerned as to how the reorganization will affect our 
ability to deal with trafficking issues. I know there are 
discussions in regard to the elimination of the Bureau of 
Population, Refugees, and Migration, and some of those 
functions being handled by the Department of Homeland Security. 
I also know there is consideration of the Consular Affairs 
Office being transferred to the Department of Homeland 
Security.
    I think, in both of those cases, it would compromise not 
only the mission of the Department of State that I think is 
critically important but how we deal with trafficking moving 
forward.
    So I look forward to the Secretary's testimony, and I look 
forward to our discussion today.
    The Chairman. Thank you very much.
    With that, our first witness is Deputy Secretary of State 
John Sullivan.
    We welcome you here.
    Our second witness today is the Ambassador-At-Large to 
Monitor and Combat Human Trafficking, Susan Coppedge.
    We are grateful that both of you are here and are doing the 
jobs that you are doing and have done.
    If you would take about 5 minutes to summarize, we would 
appreciate it. We look forward to questions after that.
    Please just proceed in the order introduced. Thank you.

STATEMENT OF HON. JOHN J. SULLIVAN, DEPUTY SECRETARY OF STATE, 
           U.S. DEPARTMENT OF STATE, WASHINGTON, D.C.

    Mr. Sullivan. Good morning. Thank you, Mr. Chairman, 
Senator Cardin, members of the committee.
    I am honored to appear before you again today to discuss 
the important topic of the 2017 Trafficking in Persons Report, 
which the State Department released last month. I am grateful 
for the opportunity to testify about the report.
    The State Department is also grateful for the committee's 
leadership and input on this issue, and on human rights and 
democracy more broadly. Individual liberty and the freedoms of 
religion, speech, press, assembly, and the right to petition 
the government are at the core of who we are as Americans.
    Secretary Tillerson and I share a personal commitment in 
this regard, and we are proud of the significant efforts across 
the Department of State to protect and promote individual 
freedom.
    Through hearings like this one and strong legislation 
backed by this committee, you have been consistent and tireless 
in fighting the insidious crime of human trafficking. I look 
forward to our continued collaboration on this and our broader 
efforts to defend the world's most vulnerable.
    I would also like to particularly thank Ambassador-At-Large 
Susan Coppedge, who leads the State Department's Office to 
Monitor and Combat Trafficking in Persons, also known as the 
TIP Office. Susan and her team have done a remarkable job, not 
only in producing the detailed report that has been released, 
but also through efforts to encourage foreign officials, NGO 
leaders, and others around the world to join us in this fight.
    At the public rollout of the report in June, Secretary 
Tillerson read a sobering line from the preamble of the 
Trafficking Victims Protection Act of 2000. ``As the 21st 
century begins, the degrading institution of slavery continues 
throughout the world.'' Seventeen years later, there are still 
more than an estimated 20 million victims of human trafficking. 
But the Secretary also encouraged us to join in a shared hope 
that the 21st century will be the last century of human 
trafficking.
    The TIP Report is an instrument that will help us to make 
that hope become a reality. It is not only a symbol of U.S. 
global leadership on combating human trafficking, but a 
diagnostic tool to assess government efforts across the three 
Ps: prosecuting traffickers, protecting and empowering victims, 
and preventing future trafficking crimes.
    Since the enactment of the TVPA in 2000 and the TIP 
Report's first publication in 2001, the report has prompted 
foreign governments to enact comprehensive legislation, 
prosecute human traffickers, establish national action plans, 
implement anti-trafficking policies and programs that protect 
victims, and conduct prevention campaigns.
    The focus of this year's report is on government's 
responsibility to criminalize human trafficking in all its 
forms and to prosecute offenders. It also emphasizes the 
responsibility of governments to enforce anti-trafficking laws, 
to prevent the use of child soldiers, and to prosecute corrupt 
officials who choose to turn a blind eye.
    To combat human trafficking effectively, governments must 
also root out complicity and corruption by law enforcement and 
public officials. The report makes clear that many countries 
are taking this issue seriously.
    I would like to emphasize some of the positive efforts 
countries have made in the past year that are discussed in the 
report.
    As Secretary Tillerson noted, Afghanistan serves as an 
example of progress. Last summer, President Ghani ordered an 
investigation into the institutionalized sexual abuse of 
children by security forces, and promised punishment for 
perpetrators.
    In January of this year, the Afghan Government enacted a 
new law to criminalize the practice of bacha bazi, a practice 
that exploits boys for social and sexual entertainment.
    We will continue to work with the Afghan Government toward 
even greater progress this year as they build on these efforts 
to investigate, prosecute, and convict traffickers, including 
complicit government officials.
    Ukraine is another example. The country has been on the 
watch list for 4 years but was upgraded to Tier 2 status this 
year because of its efforts to improve investigations of 
trafficking. This has led to the arrest and conviction of 
police officers, public officials, and others found to be 
complicit or willfully negligent in the trafficking of girls 
and boys under their care.
    Today, officials are on notice that complicity in 
trafficking leads to strict punishment in Ukraine.
    But, unfortunately, some countries have backpedaled.
    This year's report reveals that China has not taken serious 
steps to end its own complicity in trafficking. Tens of 
thousands of North Korean citizens are working overseas as 
forced laborers, primarily in China and Russia. The North 
Korean regime profits financially, making hundreds of millions 
of dollars per year on the backs of their exploited citizens 
working abroad.
    Responsible nations cannot allow this. Because of China's 
lack of significant efforts to address and eliminate 
trafficking, China was downgraded to Tier 3.
    The TIP Report is one component of the State Department's 
year-round effort to combat human trafficking around the world. 
It informs our foreign assistance programming to develop anti 
trafficking strategies for each region and to prioritize 
countries according to their need for assistance and their 
political will to make improvements. We use the analysis and 
recommendations as a roadmap to guide U.S. diplomacy on human 
trafficking, so our Ambassadors and officials at every level 
can engage with foreign counterparts to encourage renewed 
efforts in this fight.
    I commit to you today that, as I engage with foreign 
government officials, I will, like many of you, raise anti-
trafficking concerns, as well as broader human rights issues. 
All countries, including our own, including the United States, 
have more to do to fight to end modern slavery.
    I am proud of the progress reflected in the 2017 TIP 
Report, but there is much more work to do to make the 21st 
century the last for human trafficking. We are eager to work 
with Congress to that end, and I look forward to your 
questions.
    Thank you.
    [Mr. Sullivan's prepared statement follows:]


                 Prepared Statement of John J. Sullivan

    Good morning, Mr. Chairman, Senator Cardin, members of the 
committee. I am honored to appear before you again today to discuss the 
2017 Trafficking in Persons Report, released by the State Department 
last month. Thank you for the opportunity to testify.
    The State Department is grateful for the committee's leadership and 
input on this issue, and on human rights and democracy more broadly. 
Individual liberty and the freedoms of religion, speech, press, 
assembly, and the right to petition the government are at the core of 
who we are as Americans. Secretary Tillerson and I share a personal 
commitment in this regard, and we are proud of the significant efforts 
across the Department of State to protect and promote individual 
freedom.
    Through hearings like this one, and strong legislation, you have 
been consistent and tireless in fighting the insidious crime of human 
trafficking. I look forward to our continued collaboration on this and 
our broader efforts to defend the world's most vulnerable.
    I would particularly like to thank Ambassador-at-Large Susan 
Coppedge, who leads the State Department's Office to Monitor and Combat 
Trafficking in Persons, also known as the TIP Office. Susan and her 
team have done a remarkable job--not only in producing this detailed 
report, but through efforts to encourage foreign officials, NGO 
leaders, and others around the world to join us in this fight.
    At the public rollout of the Report in June, Secretary Tillerson 
read a sobering line from the preamble of the Trafficking Victims 
Protection Act of 2000: ``As the 21st century begins, the degrading 
institution of slavery continues throughout the world.'' Seventeen 
years later, there are still more than an estimated 20 million victims 
of human trafficking. But the Secretary encouraged us to join in a 
shared hope: ``that the 21st century will be the last century of human 
trafficking . . . ''
    The Trafficking in Persons Report is an instrument that will help 
that hope become a reality. It is not only a symbol of U.S. global 
leadership on combating human trafficking, but a diagnostic tool to 
assess government efforts across the 3Ps: prosecuting traffickers, 
protecting and empowering victims, and preventing future trafficking 
crimes.
    Since the enactment of the TVPA in 2000 and the TIP Report's first 
publication in 2001, the Report has prompted foreign governments to 
enact comprehensive legislation, prosecute human traffickers, establish 
national action plans, implement antitrafficking policies and programs 
that protect victims, and conduct prevention campaigns.
    The focus of this year's Report is on governments' responsibilities 
to criminalize human trafficking in all its forms, and to prosecute 
offenders. It also emphasizes the responsibility of governments to 
enforce anti-trafficking laws, to prevent the use of child soldiers, 
and to prosecute corrupt public officials who choose to turn a blind 
eye. To combat human trafficking effectively, governments must also 
root out complicity and corruption by law enforcement and public 
officials.
    The Report makes clear that many countries are taking this issue 
seriously. I would like to emphasize some of the positive efforts 
countries have made in the past year, as discussed in the Report.
    As Secretary Tillerson noted:


   Afghanistan serves as an example of progress. Last Summer, 
        President Ghani ordered an investigation into institutionalized 
        sexual abuse of children by security forces, and promised 
        punishment for perpetrators. In January, the government enacted 
        a new law to criminalize bacha baazi [BAH-chah BAH-zee], a 
        practice that exploits boys for social and sexual 
        entertainment. We will continue to work with the Afghan 
        government toward even greater progress this year, as they 
        build on these efforts to investigate, prosecute, and convict 
        traffickers--including complicit government officials.
   Ukraine serves as another example. The country has been on the 
        Watch list for four years, but was upgraded to Tier 2 status 
        because of its efforts to improve investigations of 
        trafficking. This has led to the arrest and conviction of 
        police officers, public officials, and others found to be 
        complicit or willfully negligent in the trafficking of girls 
        and boys under their care. Today, officials are on notice that 
        complicity in trafficking leads to strict punishment.


    But unfortunately, some countries have back-pedaled.


   As Secretary Tillerson mentioned, this year's Report reveals that 
        China has not taken serious steps to end its own complicity in 
        trafficking. Tens of thousands of North Korean citizens are 
        working overseas as forced laborers, primarily in China and 
        Russia. The North Korean regime profits financially--making 
        hundreds of millions of dollars per year on the backs of their 
        exploited citizens working abroad.


    Responsible nations simply cannot allow this. Because of the 
Chinese government's lack of significant efforts to address and 
eliminate trafficking, China was downgraded to Tier Three.
    The Report is one component of the State Department's yearround 
efforts to combat human trafficking around the world. It informs our 
foreign assistance programming to develop antitrafficking strategies 
for each region, and to prioritize countries according to their need 
for assistance and their political will to make improvements. We also 
use the analysis and recommendations as a roadmap to guide U.S. 
diplomacy on human trafficking, so our Ambassadors and officials at 
every level can engage with foreign counterparts to encourage renewed 
efforts in this fight. I commit to you today that as I engage with 
foreign government officials, I will, like many of you, raise 
antitrafficking concerns, as well as broader human rights issues. All 
countries--including the United States--have more they can do to fight 
modern slavery.
    I am proud of the progress reflected in the 2017 Trafficking in 
Persons Report, but there is much more work to do to make the 21st 
Century the last for human trafficking. We are eager to work with 
Congress to that end, and I look forward to your questions.


    The Chairman. Thank you so much.
    Ambassador?

 STATEMENT OF HON. SUSAN COPPEDGE, AMBASSADOR-AT-LARGE, OFFICE 
 TO MONITOR AND COMBAT TRAFFICKING IN PERSONS, U.S. DEPARTMENT 
                    OF STATE, WASHINGTON, DC

    Ambassador Coppedge. Thank you, Mr. Chairman, Senator 
Cardin, and members of the committee. It is a real privilege to 
be here before you today on an issue to which we are all 
dedicated.
    I am honored to join Deputy Secretary Sullivan, and I am 
happy to answer questions on this year's TIP Report.
    I also have to say that I am very humbled by the kind words 
that have been spoken about me this morning, but the effort to 
reduce this report is a State Department-wide effort. There are 
fabulous staff in the TIP Office here. Our Embassy personnel 
around the world, none of this hard work could be done without 
them. And I am the beneficiary of that hard work and dedication 
by the State Department employees.
    Hearings like this are very important to highlight the U.S. 
Government's commitment to combat trafficking. And the TIP 
Report is used not only by governments, but also by NGOs and 
civil society members, some of whom are here today and many of 
whom will be watching.
    This conversation is a valuable opportunity to discuss the 
report's analysis and how it can be used as an effective tool 
to help improve government responses around the world.
    I look forward to discussing the report with you.
    The Chairman. Thank you.
    I, again, thank you both for your testimony. I know there 
will be numbers of written questions, and some here today, 
about some of the actual results.
    I would like to talk to you a little bit about just the 
bigger picture. I think for those people here in the audience, 
most of whom are interested in this issue and have spent years 
on this issue, they may be surprised at some of the things that 
were even cited in John's opening comments about what is 
happening around the world.
    Could you share with us maybe, Susan, you most, since 
Secretary Sullivan is new, but what are you seeing in trends 
right now around the world as it relates to this issue, and 
countries and citizens, if you will, taking up the challenge of 
ending modern slavery and trafficking in persons?
    Ambassador Coppedge. Since the report first was produced, 
many more countries have passed laws banning the practice of 
human trafficking. Many of those are in compliance with the 
international protocol known as the Palermo standard, but we 
are still encouraging governments to criminalize all forms of 
trafficking.
    Some areas that were sometimes overlooked in laws in 
countries were labor trafficking or trafficking of juveniles 
under the age of 18 without requiring force, fraud, or 
coercion. So if someone is under 18, they cannot consent to 
engage in prostitution. They are sex trafficking victims, and 
we are pushing countries around the world to recognize that.
    So some laws have been passed, and some laws are still 
incomplete.
    We are also seeing an increase among law enforcement in the 
ability to identify victims of trafficking. I share with 
governments when I travel that, once you get better at 
identifying victims, your numbers are going to go up before 
they go down. The number of trafficking cases a country will 
find will increase.
    It is not enough to say, ``We have passed a law. We have 
solved the problem. There are no trafficking victims.'' That is 
not an accurate statement. Once you understand, law enforcement 
understands the ability to recognize trafficking victims, then 
the number of prosecutions around the world should increase.
    Once law enforcement recognizes these victims, there is 
then a need to provide services to victims, to make them whole 
again, to reintegrate them into society. So a lot of the grants 
that my office manages, and a lot of the efforts we are 
encouraging on behalf of foreign governments now, is to provide 
services and shelter for victims.
    One key component of that is to allow victims to remain in 
a country and work while the case is pending. If victims cannot 
stay there, a prosecutor loses their best evidence, and those 
cases will not be successful.
    We are also still concerned globally with corruption and 
complicity of government officials. If government officials are 
involved in human trafficking, then human trafficking victims 
will not report that crime, because they will fear retaliation 
or fear they will not be believed or listened to.
    So those are just a few of the global trends we are still 
engaging on, both from the TIP Office and with our Embassies 
around the world.
    The Chairman. How much of the focus on this is being 
generated in countries because of their own citizens' awareness 
of this scourge, if you will? And how much of it is because of 
countries like ours, but others also, that are leading efforts 
to end it?
    Ambassador Coppedge. I think you need both those pressure 
points. One of the three P areas that we look at is protection 
and prevention. Prevention is really informing citizens what is 
going on in that country so they can be aware of the dangers of 
human trafficking.
    One of the reasons, for example, the Philippines was raised 
to Tier 1, I believe last year, was that they are informing 
their citizens who are going to work abroad what trafficking 
indicators are and what to do if you find yourself in a 
trafficking situation.
    So governments are informing their citizens, but everyday 
citizens are also becoming involved.
    I meet with NGOs when I travel, and you met with the TIP 
Heroes at the rollout of our report. People around the world 
are really focused and galvanized around this issue, and are 
making a difference, whether it is through faith-based groups, 
through academia. We had a judge here from Morocco who was 
instrumental in that country's laws.
    So really, it is a whole-of-society effort to combat 
trafficking.
    The Chairman. And what role is End Modern Slavery 
Initiative going to play in our continued efforts in this 
regard?
    Ambassador Coppedge. So the program to end modern slavery, 
the $25 million that has been provided to the State Department, 
will go to addressing prevalence areas. So the report focuses 
on what governments are doing, but even governments who are 
taking substantial efforts, significant efforts, may still face 
a large number of trafficking situations in their country, a 
large number of criminal actors and a large number of victims.
    So we hope that the program to end modern slavery will look 
at that prevalence number and also share best practices about 
what is working internationally, and do a good job of keeping 
statistics of what the size and scope of the problem is and 
what solutions can help to eradicate that.
    The Chairman. Senator Cardin?
    Senator Cardin. Thank you.
    I thank both witnesses.
    Secretary Sullivan, in the discussion that we had with the 
chairman, I just really want to underscore our appreciation for 
the amount of time Secretary Tillerson and yourself spent on 
this report, and how you assured us that the decisions were 
made based upon the facts and only the facts. We appreciate 
that very much. And that leadership coming from the Secretary 
and from yourself is very important.
    I want to drill down on the reorganization within the State 
Department, and the impact it could have on the trafficking in 
persons information received in making the report, as well as 
the final report itself.
    There have been reports that the Consular Affairs Office is 
being considered for termination within the State Department, 
transferring its functions to the Department of Homeland 
Security, and that the Bureau of Population, Refugees, and 
Migration is being eliminated, and some of its functions would 
be transferred to the Department of Homeland Security.
    Both of those actions, I think, would very much damage the 
Department of State's core function missions, as well as 
compromise our ability to get the information we need to deal 
with the Trafficking in Persons Report. Refugees, we know, are 
very vulnerable to trafficking.
    Can you just give the committee a status of those 
discussions, and hopefully alleviate some of our concerns that 
this capacity within the State Department is in jeopardy?
    Mr. Sullivan. Thank you, Senator Cardin.
    First, thank you for your statements about the Secretary's 
leadership on the TIP Report. My presence here is only because 
the Secretary is in the Persian Gulf today as we speak to 
address an urgent matter. Otherwise, he himself would be here.
    He is committed to ensuring that the work of this office, 
the work of Ambassador Coppedge's office, and the production of 
this TIP Report is not politicized, is not influenced by 
factors outside of statutory standards that are applicable and 
apply to the facts as we find them.
    We are committed to maintaining the integrity of this 
office and this report in whatever the outcome is in the 
redesign of the State Department that the Secretary has 
undertaken.
    As we discussed this morning, we are now beginning the 
process of studying the redesign of the State Department. There 
is a steering committee that has been convened, comprised 
primarily of senior and junior career officials, Foreign 
Service Officers, civil service employees from AID and State, 
and working groups established under that steering committee, 
to study questions such as the function of Consular Affairs and 
PRM.
    I can commit to you today, on behalf of the Secretary and 
the department, that the outcome of that review has not been 
predetermined. We appreciate the importance, and the Secretary 
has said this, the role that Consular Affairs and PRM play not 
only in combating trafficking in persons but in the mission of 
the department. Consular officers abroad, they are the face of 
the United States for foreign citizens looking to come to this 
country.
    So I will commit to you that this office, Susan's office, 
will be protected in any review, because of its importance. And 
the integrity of the report itself that is produced every year 
will also be protected.
    Senator Cardin. Thank you. I appreciate that. I strongly 
urge that these functions remain within the State Department.
    Ms. Coppedge, as I said earlier, I am very complimentary of 
the manner in which these judgments were made on tier ratings. 
But I need to concentrate on Malaysia, because I have a hard 
time understanding the upgrade for Malaysia.
    A little bit history here. In 2015, Malaysia was taken from 
Tier 3 to Tier 2 Watch. I do not think there was a member of 
this committee after the hearings the was convinced that was 
made on the merits. It clearly looked like it was a political 
decision made so that it could be eligible for the TPP 
negotiations. There was virtually no justification for the 
upgrade.
    Now in 2017, you are upgrading Malaysia, the country that 
got a pass in 2015, to Tier 2 rather than Tier 2 Watch. We know 
that the Rohingya population is still very vulnerable in 
Malaysia. We know that there have been no explanations as to 
the tragedies that occurred with the discovery of the mass 
graves. We know the police officers were released that were 
suspected. We know the number of victims that have been 
identified pale in comparison to the grand numbers.
    We know there have been increased numbers of prosecution 
activities. But there does not seem to be a fundamental shift.
    And if this committee's observations were correct, that 
they were upgraded and they should not have been upgraded to a 
Tier 2 Watch, why were they rewarded again?
    Ambassador Coppedge. Thank you, Senator Cardin.
    I will engage in a little bit of history as well.
    I believe after that 2015 hearing, that the Deputy 
Secretary came over and briefed members in a closed-door 
session. And I know that then-Secretary Kerry in 2016 said that 
there were no political considerations that went into the 2016 
report.
    Senator Cardin. Exactly right, but no one believed him.
    Ambassador Coppedge. And then today, you have had the 
affirmation from Deputy Secretary Sullivan and Secretary 
Tillerson that no political considerations went into the report 
this year. And you cited all of the areas from the report that 
the U.S. Government says Malaysia still needs to work on.
    Tier 2, as a ranking, means you are not meeting the minimum 
standards, but that you are making significant efforts as a 
country. And all of those factors that you cited are areas that 
we still encourage the Malaysian Government to work on.
    However, there are numbers that show that they did make 
significant efforts this year. They quadrupled the number of 
trafficking investigations from 158 to 581, and the number of 
convictions increased from 7 to 35. Now, that number is still 
low, as you noted, given the scope of the problem, but that is 
a significant increase from seven, and one that this year's 
report recognized with the Tier 2 ranking.
    They also strengthened law enforcement efforts around 
trafficking, and we talk about this with foreign governments 
because it is so important to look at the factors and 
indicators of trafficking. Sometimes, when a country is getting 
up to speed on its trafficking law and educating law 
enforcement, they need to find other ways to crack down on the 
crime.
    What Malaysia did was enforce the law prohibiting passport 
retention. Migrant workers to Malaysia were having their 
passports held. That is a clear indicator that there could be 
trafficking, a clear indicator that someone may not be free to 
move. And one of the top recommendations of the report in years 
past is to look at this law. They convicted 17 employers for 
unauthorized retention of passports, compared to zero the 
previous year.
    They also identified a record number of victims, more than 
1,100.
    Again, they are starting to do these things and make these 
significant efforts. Do they still have progress that needs to 
be made? Yes. Will we still be watching very closely what 
happens to their prosecution and conviction numbers? Yes. And 
we will certainly continue to emphasize that victims need to be 
allowed to move freely and work in that country while 
prosecutions are pending.
    Senator Cardin. Well, I thank you for that explanation. I 
do not question the manner in which the decision was made. I 
question the final judgment.
    And I can assure you that--I know that you will be moving 
on, but we will be watching this country very, very closely to 
see whether these trends are real and whether they are having 
an impact on the ground, on the trafficking that takes place in 
the country.
    The Chairman. Thank you.
    Senator Young?
    Senator Young. I want to thank the Ambassador and Secretary 
for your hard work on this important issue of trafficking.
    Mr. Sullivan, on May 9 in your nomination hearing, you were 
kind enough to indulge a number of different requests that I 
made of you. You immediately followed up proactively with a 
letter. Thank you for your responsiveness and thoughtfulness in 
that letter. You have taken action steps, and I am grateful for 
all of that.
    The first issue I raised with you in that May 9 hearing 
pertained to the Government Accountability Office. I think this 
is an underutilized institution of our Federal Government. I 
mean, they really provide some critical feedback on 
programmatic issues, organizational issues, and so forth.
    I commend, for example, the Department of State for taking 
their recommendation to improve the clarity and usefulness of 
this year's TIP Report. So that is an example of the sort of 
thing that they often add value in.
    I note that, as of this morning, GAO's website reports 
there are 57 publications from GAO with a total of 125 open 
recommendations for the Department of State, including 28 
priority recommendations that have not been implemented or 
fully implemented. Now, some of these open recommendations 
relate to issues like human trafficking or diplomatic security 
or security assistance, so really consequential issues.
    I want to make sure I am very fair and clear here. I note 
that 125 open recommendations is down from the 132 in May. But 
I would hope that we might continue to make rapid progress 
toward addressing some of these. I would also note that the 
number of priority recommendations has increased since we last 
visited, from 22 to 28.
    So can you just provide me, Mr. Secretary, with an update 
on your efforts to ensure State fully and appropriately 
responds to GAO's recommendations?
    Mr. Sullivan. Yes, thank you, Senator Young.
    The statistics you cite are important and troubling, the 
fact that there are as many open items as there are, and that 
is reflected in recent statistics from the GAO from June. We 
have a letter from June 5 from the comptroller general with 28 
priority recommendations that the State Department needs to 
address.
    You mentioned the recommendation with respect to the TIP 
Report, which is one that we have implemented. I committed to 
you at my confirmation hearing, and I recommit today, and I 
apologize that I have not been as quick in getting back to you 
on the GAO open recommendations as I should have been, but they 
are a priority for me, both GAO and our inspector general 
recommendations, which we also have to respond to and 
implement.
    I will say that it is a government-wide issue. I think the 
same statistics that the GAO provided show that we probably 
have an above-average response rate, compared to the rest of 
the Federal Government. But that is still not good enough.
    Senator Young. No, thank you for your good work, for your 
recommitment to get this done. I am not going to benchmark you 
against the general Federal Government. That is a pretty low 
standard, from my view. But thank you very much.
    Some positive news, the second issue I raised in the 
nomination hearing, you might recall, related to problems many 
Americans are experiencing. You verbalized it, adoption, 
bringing home legally adopted children from Ethiopia.
    We had some really good news in my State. Working with your 
folks over at the State Department, the Ethiopian Ambassador, 
who deserves a shout-out, 122 members sent a letter that I 
helped lead to the Ethiopian Prime Minister. So a lot of actors 
involved here.
    But we were able to, in our office, welcome home a new 
Hoosier, Genene, to Indiana last month, the son of Jon and 
Rachel Oren of Fishers, Indiana. Thank you, to you and your 
professionals.
    The last thing I want to do is commend you for your 
leadership, your professionalism, not just consulting with 
Republicans and Democrats, people who have held your job and 
other jobs, to help inform you better about your coming work. 
But you have emphasized the importance of the professionals at 
State, at USAID. We want them to feel respected. We want their 
work--we want them to understand their work is important.
    I have always operated under the popular assumption that 
there are kind of three distinct disciplines in the national 
security forum. We have diplomacy. We have development. We have 
defense. And development has its own unique skills, culture, 
and approaches.
    Would you agree with that assessment?
    Mr. Sullivan. Certainly, Senator.
    Senator Young. Okay. I also presume that whatever reforms 
we undertake at State and USAID will involve maintaining a 
skilled and experienced development work force, professional 
staff, who understand the art and science of development.
    Is that a correct assumption?
    Mr. Sullivan. Yes, it is.
    Senator Young. Okay. Thank you.
    The Chairman. Thank you.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman, for holding the 
hearing and for your continuing leadership on the question of 
human trafficking. I truly appreciate it.
    And thank you both for your service.
    Ambassador Coppedge, let me ask you a simple yes or no. 
Would you agree that Malaysia has a very significant number of 
trafficking victims?
    Ambassador Coppedge. Yes.
    Senator Menendez. And also yes or no, do you believe that 
the number of trafficking victims in Malaysia is significantly 
increasing?
    Ambassador Coppedge. That is hard to determine.
    Senator Menendez. Isn't it numerically possible to 
determine?
    Ambassador Coppedge. I believe that human trafficking is a 
hidden crime. It is very hard to get accurate data as to 
whether the problem is increasing or not, or whether we are 
just getting better, Government officials are just getting 
better at detecting it. NGOs are getting better at assisting 
victims and reporting that.
    Senator Menendez. Well, the TVPA defines countries that 
should be included on the Tier 2 Watch List as countries that 
otherwise meet the Tier 2 definition but where: one, the 
absolute number of victims is very significant or significantly 
increasing; there is a failure to provide evidence of 
increasing efforts to combat trafficking; or three, the 
determination a country is making significant efforts based on 
commitments by the country to take future action.
    This year's report seems to have ignored that first group, 
countries with the absolute number of victims is very 
significant or significantly increasing, and instead made the 
distinction between Tier 2 and Tier 2 Watch List solely on the 
second and third categories.
    So given that you agree that Malaysia has a very 
significant number of trafficking victims, why did the State 
Department ignore that part of the legal requirement when 
determining Malaysia's tier ranking?
    Ambassador Coppedge. Senator, I can assure you that we did 
not ignore that part of the minimum standards in the tier 
requirements. Those factors--the four minimum standards, 12 
indicia, and three factors you just enumerated in determining 
the rank of a country between Tier 2, Tier 2 Watch List, and 
Tier 3--were all considered with respect to Malaysia.
    Senator Menendez. But there is no question that they have a 
very significant number. So it seems to me that--my 
understanding is that you had to meet all of these elements. 
Are they weighted?
    Ambassador Coppedge. There are many factors that go into 
it, and factors can point to different directions.
    So what we do at the State Department is sit down and 
discuss those facts, fill in any gaps in information we have, 
consult with NGOs and citizens who are invited to share 
information. I know individuals on the Hill share information 
that they receive as well.
    All of these different factors are considered. Again, some 
may point in different directions. They are weighted, and a 
final result is made.
    Senator Menendez. Well, factors that point in different 
directions can be an excuse.
    Let me ask you this. You testified last year before the 
committee, and I quote, ``Malaysia stayed on the Tier 2 Watch 
List because it has a serious human trafficking problem, and it 
did not make overall increasing efforts.''
    So to me, that statement reflects the correct 
interpretation of the law, in that both the scale of the 
problem and the efforts of government must be considered when 
determining Tier 2 Watch List status. It seems to me that you 
abandoned that interpretation for this year's report.
    I am wondering, the notion that increased efforts, 
subjectively defined, are enough to remove a country from the 
watch list seems to be a newly created standard that was not 
noted in the report in past years.
    Ambassador Coppedge. Senator, we do not rely on just one 
standard. I can say that we did not abandon the minimum 
standards in making the evaluation.
    We looked at--and you missed a bit of my conversation with 
Senator Cardin--the increases in the number of trafficking 
investigations. They quadrupled from 158 to 581. The number of 
trafficking convictions increased from 7 to 35. That number is 
still woefully low, given the scope of the problem, but there 
were significant efforts, given the efforts in the previous 
year.
    We will continue to look at the numbers of prosecutions, 
investigations, and convictions.
    Senator Menendez. Is criminalization of forced labor a 
requirement to meet the minimum standards of the law?
    Ambassador Coppedge. It is certainly something that is 
looked at to see whether the law is comprehensive in addressing 
all forms----
    Senator Menendez. That is not a minimum standard of the 
law? You interpret it as just looking at it?
    Ambassador Coppedge. No, Senator. If you look at that, and 
a country does not criminalize all forms of forced labor, I 
submit to you that they would never be a Tier 1 country.
    Senator Menendez. Well, Cuba was granted a waiver from an 
otherwise automatic downgrade to Tier 3 because the Government 
of Cuba devoted resources to some written plan, if implemented. 
But the law has not changed. They do not criminalize forced 
labor.
    Ambassador Coppedge. And that is something that we continue 
to raise with the Government of Cuba, and something that is 
addressed in their written plan.
    Senator Menendez. But how do they deserve a waiver?
    Ambassador Coppedge. The waiver looks at the written plan 
to make sure that that plan would apply----
    Senator Menendez. Do we have access to that written plan?
    Ambassador Coppedge. The written plan is submitted by 
governments to the State Department, and we believe it would be 
chilling to share that plan submitted by a foreign government.
    Senator Menendez. So it would be chilling to share a plan 
that is the basis of a statutorily mandated report, and for 
which we could not make a judgment without knowing whether that 
plan is significant enough to give a country like Cuba--for 
that fact, any other country similarly situated--a waiver.
    That is ridiculous. That is beyond--beyond--the whole 
notion that, in order not to freeze the deliberative process 
internally in the State Department, as it relates to these 
rankings, that, in fact, that we should not have access to a 
report that a government gets a waiver on.
    Mr. Chairman, this is why reform of the existing 
legislation is so important.
    If I may, one last question.
    Secretary Sullivan, a Reuters report on June 23 claims that 
Secretary Tillerson overruled his staff assessments on the use 
of child soldiers in Iraq and Myanmar, and removed them from 
the Child Soldier Prevention Act. It goes on to say that he 
also rejected a staff proposal to add Afghanistan to that list.
    I would ask consent that the Reuters article be entered 
into the record, Mr. Chairman.
    The Chairman. Without objection.


    [The information referred to above is located at the end of 
this hearing transcript.]


    Senator Menendez. Is that account accurate?
    Mr. Sullivan. Senator, the Secretary took the facts that 
were presented to him through the TIP Report process, through 
the process that generated the recommendations to him, applied 
the legal standard in his judgment to the facts that were 
presented, and reached his determination with respect to those 
three cases. I am happy to discuss each of those three, Burma, 
Afghanistan, and Iraq.
    But it was his judgment of applying the legal standards to 
the facts that led to the----
    Senator Menendez. I would be very interested in 
understanding why he rejected the advice of State Department 
experts.
    Mr. Sullivan. Mr. Chairman, may I?
    The Chairman. Go ahead.
    Mr. Sullivan. Just two points on that.
    The Secretary, for each of these determinations, makes his 
own independent judgment. I would be happy to brief you on this 
issue, as well as the issue that you raised previously with 
Ambassador Coppedge on Cuba with respect to our determinations 
with respect to Cuba, the facts there, as well as going forward 
on our engagement with Cuba, both law enforcement and migration 
issues, and with respect to trafficking in persons, and provide 
you with information, if not the plan that Susan described, 
sufficient information, so that you understand what our 
position is with respect to Cuba.
    Senator Menendez. I will not belabor it, because the 
chairman has been, even though there are no other members 
present, the chairman has been very gracious with time.
    I will just simply say, first of all, I would like an 
answer for the record in writing, and I would be happy to take 
your briefing as well.
    But let me just say, this answer that we cannot even see a 
report that has nothing to do with the deliberations to 
determine whether a country should get a waiver or not, that is 
beyond the scope, from my perspective, it is beyond the scope 
and not acceptable.
    Thank you, Mr. Chairman.
    The Chairman. Yes, sir.
    Senator Cardin?
    Senator Cardin. I am troubled, Secretary Sullivan, with 
your answer there.
    The Child Soldier Prevention Act requires the 
identification of those governments, armed forces or 
government-supported armed forces that recruit and use child 
soldiers. The 2017 report lists Burma and Afghanistan as 
countries that use and recruit child soldiers by government 
forces.
    It seems that that is a direct contradiction, if it is 
listed in the TIP Report but removed from the Child Soldier 
Prevention Act.
    Mr. Sullivan. Senator Cardin, with respect to Burma, for 
example, the Burmese Government has undertaken, in response to 
prodding from the United States and others, significant efforts 
to prevent the recruitment of child soldiers, and in having 
anyone who was recruited as a child to serve as a soldier to be 
released from that service. So we had 112 cases in 2016 of 
child soldiers in Burma who were released from their service 
because they had been recruited as children.
    That was among the factual bases that the Secretary relied 
on in making his determination.
    Senator Cardin. But is it correct? Was the TIP Report 
correct to say that Burma still recruits and uses child 
soldiers?
    Mr. Sullivan. We have concerns about the recruitment of 
child soldiers in Burma, and we will continue to monitor that 
extremely closely.
    But factually, the Secretary made the determination that, 
with respect to this particular reporting period, given the 
results through Ambassador Coppedge's efforts, among others, to 
get the Burmese Government to remove those individuals who have 
been recruited as child soldiers, 112 from that service, that, 
factually, that that determination was mandated.
    Senator Cardin. I understand you are saying they are making 
progress. My understanding of the Child Soldier Prevention Act 
is that, if they do recruit and use child soldiers, they are 
listed.
    So it seems to me that there is an inconsistency with the 
findings in the TIP Report and the determination on the Child 
Soldier Prevention Act.
    Mr. Sullivan. The factual determination on whether there 
were, in fact, child soldiers recruited during that time 
period, as opposed to prior instances of the Government of 
Burma recruiting child soldiers, the factual basis for the 
Secretary's determination was that, in fact, the Burmese 
Government was releasing child soldiers from service.
    We still have concerns about that practice, about the 
Burmese Government commitment to end that practice and maintain 
that practice, but that was the factual basis for the 
determination.
    Senator Cardin. I should have the report in front of me, 
but at least the summary I have shows the 2017 report indicates 
that Burma still uses and recruits child soldiers. Am I wrong?
    Ambassador Coppedge. So with respect to the report, the 
report always looks back at a 5-year snapshot to capture what 
has been going on in a country, and there is also a difference 
in definition between trafficking laws and the Child Soldier 
Prevention Act. There are some age differences in those two 
laws.
    Senator Cardin. I understand that. My question is, during 
the reporting period, did Burma use and recruit child soldiers?
    Ambassador Coppedge. With respect to individuals under the 
age of 18, there have been reports in the past 5 years that 
child soldiers were recruited and used.
    Senator Cardin. It seems to me that this is a mixed 
message.
    I think Congress very clearly, with the Child Soldier 
Prevention Act, wanted the United States to be very clear. It 
is not a matter of making improvements. It is a matter of 
whether they do it or don't do it. It seems to me that the TIP 
Report says, yes, they still do this. And the delisting 
indicates an inconsistency with our commitment against child 
soldiers.
    The Chairman. Do you want to follow up on any of these? Are 
we good?
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman. Go ahead.
    Senator Menendez. I have one other question that I did not 
get to.
    Let me ask you this, Ambassador. How many rankings could 
not be decided between you and other senior State Department 
officials and, therefore, had to be elevated to the Secretary?
    Ambassador Coppedge. So as you know, Senator, we sit down 
at the working level and reach consensus recommendations in the 
majority of cases. This year, five were elevated.
    Senator Menendez. And in those instances, was there ever an 
occasion where factors not related to the government's efforts 
to combat trafficking came up in the discussion of a country's 
ranking?
    Ambassador Coppedge. Not that I am aware of. Not in the 
discussions that I participated in.
    I would like to back up a bit to----
    Senator Menendez. If I may, because my time, let me--in 
those instances, did you consider any actions that took place 
outside the reporting period?
    Ambassador Coppedge. No.
    Senator Menendez. Mr. Secretary, one last question to you. 
In the context of those that were elevated to the Secretary, 
was there any occasion where factors not related to the 
government's efforts to combat trafficking came up in the 
discussion about a country's ranking?
    Mr. Sullivan. None.
    Senator Menendez. None whatsoever.
    Mr. Sullivan. None whatsoever.
    Senator Menendez. So, for example, in China's case, it was 
purely what they did as it relates to the lack of their 
standards meeting under the Trafficking in Persons Act?
    Mr. Sullivan. Exactly. The Secretary applied the statutory 
standards to the facts.
    Senator Menendez. Okay.
    Thank you, Mr. Chairman.
    The Chairman. I appreciate the kind of questions that have 
been asked, I really do, and I think that highlighting the 
importance of this to all of us, but also the pre-meetings that 
we have with many of the people that you referred to, 
Ambassador, that put this report together and are in charge of 
regions, points to the fact that we care deeply about this 
issue.
    I do think that this year's report was vastly, vastly 
different than what we experienced in 2015. But I still 
appreciate the fact that people want to probe and understand 
why decisions are made about child soldiers or other issues.
    So I hope you can see the importance to us. We see 
firsthand, as we travel around the world, the effect of us 
paying attention to this.
    So thank you for being here.
    Is there something else that we can be doing, that our 
Nation can be doing, to really stamp out, to help stamp out, to 
move toward stamping out what is occurring that is not being 
done today?
    Ambassador Coppedge. Well, certainly, this committee's 
dedication to the issue has raised its profile and shown that 
it is not simply one branch of the U.S. Government that cares. 
The executive branch cares. The legislative branch cares and 
raises these issues. I think that has been very important on 
the global stage in contributing to U.S. leadership on this 
issue.
    It is such a challenging area to work in, but having the 
support and even the probing questions, as you noted, at this 
hearing, I was able, when I travelled to Malaysia, which was 
the first country I went to after the TIP Report was released 
last year, I was able to say, ``You need to watch this hearing 
to see how concerned our elected officials are about 
trafficking in this country.''
    So certainly, having a double-fisted approach to the 
problem has been incredibly helpful, and I appreciate the 
collaboration that we have had.
    Mr. Sullivan. May I add one point, Mr. Chairman, not 
directly related to the TIP Report but just on human rights 
generally?
    I want to note, with sadness and regret, that Liu Xiaobo, 
the Chinese Nobel laureate, has passed away. Both the Secretary 
and I, and our Ambassador, have raised his case previously with 
the Chinese Government. It is an example of our commitment to 
human rights.
    It is regrettable what happened to this person, a Nobel 
laureate. But it is, again, an example of our commitment to 
human rights, and our commitment to you and this committee, 
that we will take those issues very seriously.
    The Chairman. When Secretary Tillerson was having his 
confirmation hearings, I know there had been some concerns 
about focusing on human rights and our leadership in that 
regard. I will have to say, and I think the committee has had a 
degree of effect on that, but I think his own experiences, as 
he has traveled the world and seen the importance of U.S. 
leadership in this regard, and the effect that it has on other 
countries, has caused him to really step up in that regard.
    I just hope, as a result of this meeting, with the many 
encounters that we have had, and I know Susan has had, with 
people throughout the State Department, to us holding up the 
ideals of human rights, of ending trafficking, is something 
that is part of an American ideal and something that we want to 
see championed in every way.
    Thank you for being here.
    Senator Cardin. Senator Kaine is here. I think he wants to 
question.
    Mr. Secretary, thank you for raising that case. That 
information came to us during this hearing. A tragic loss of a 
great human rights figure in China. I appreciate you mentioning 
it at this hearing, and the attention that we gave this to the 
Chinese.
    The Chairman. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chairman.
    Thank you to the witnesses. I apologize for being late. I 
hope I do not ask a question that has already been covered.
    The administration is reportedly considering a new 
position, Ambassador-At-Large for Human Rights, that would 
focus on refugees and humanitarian aid issues, in addition to 
combating trafficking. I think this may be a potential 
consolidation.
    What effect would it have on the TIP process if, Ms. 
Coppedge, your position were effectively eliminated or subsumed 
under a broader position overseeing the State Department's role 
in humanitarian aid and refugees, in addition to trafficking?
    Ambassador Coppedge. Senator, thank you.
    Certainly, the State Department and this administration are 
committed to combating trafficking. Secretary Tillerson spoke 
to that at the rollout of the report 2 weeks ago. The 
administration, the White House has had listening sessions 
about human trafficking. So I know this is a priority for this 
administration and will continue to be as the reorg is 
examined.
    As I understand it, there have been no firm decisions made 
about a reorganization. But there are people in our embassies 
around the world and in my office who will keep this issue on 
the front burner.
    Senator Kaine. And if I could, Mr. Sullivan, could you 
respond to that as well? What is the current status of thoughts 
about reorg in this area?
    Mr. Sullivan. They are only in the thought process, 
Senator. No decision has been reached on this issue, except the 
decision that Susan has noted, that the Secretary's commitment, 
the administration's commitment, as noted by the presence of 
the senior adviser, Ivanka Trump, senior adviser to the 
President, who was with the Secretary when the TIP Report was 
rolled out, this administration's commitment to this problem, 
trafficking in persons, and the integrity of the process that 
produces this report, is as sound as it possibly could be, and 
will be preserved and protected however the redesign goes 
forward.
    Senator Kaine. Thank you for that.
    In January 2016 at the President's interagency task force, 
DNI Clapper reported that the National Intelligence Council 
intends to issue, for the first time, a National Intelligence 
Estimate on human trafficking this summer. That was reported in 
January.
    Do you know what the status of that effort is? Is that 
still underway, to do an NIE report on human trafficking 
sometime this year?
    Mr. Sullivan. I do not, Senator. I defer to Ambassador 
Coppedge. But if we do not have the answer, we will get back to 
you promptly with that.
    Senator Kaine. Ambassador Coppedge, do you know the answer 
to that question?
    Ambassador Coppedge. I do not know the answer. We will have 
to get back to you.
    Senator Kaine. Okay. I will submit it specifically in 
writing and would appreciate your response to that.
    I almost always try to ask Western Hemisphere questions, so 
let me jump to that hemisphere.
    The budget request for the administration in Central 
America is significantly reduced with a 30 percent proposed cut 
to the region. We are grappling with budget questions.
    Costa Rica, St. Lucia, Trinidad and Tobago were upgraded to 
join Mexico, El Salvador, Honduras, and Panama as Tier 2 in 
2017. Guatemala and Nicaragua were dropped from Tier 2 to join 
Cuba and Bolivia as Tier 2 Watch List countries. So there is 
clearly a lot of action in the Americas on this issue now.
    How do you think that cut, if it is carried out in the 
budget, would affect the ability of the countries in that 
region, or our ability to help them, combat trafficking in 
persons?
    Ambassador Coppedge. So, certainly, with trafficking being 
a priority, I am hoping that the budget cuts will stay away 
from what the administration has acknowledged is a priority.
    We also just recently entered into a child protection 
compact with the Government of Peru, whereby we will focus 
approximately $5 million over 3 years to 4 years with NGOs 
there addressing the problem of child trafficking in Peru.
    So we are still very engaged. We obviously have 
international program funds going to Central and South America. 
It is an area where we believe we will still continue to be an 
important player and still put our energies and focus on that 
area.
    Senator Kaine. I know this is kind of a hard question to 
answer generally, but as you are looking at Latin America 
generally, do you think the arch is going in the right way, the 
wrong way, kind of staying the same? Or is it spotty, depending 
on the country?
    Ambassador Coppedge. So I think, around the world, law 
enforcement and governments are getting better at identifying 
trafficking, recognizing it for the crime that it is, instead 
of a smuggling crime or an immigration crime or a prostitution 
crime. They are getting better at identifying the crime as 
trafficking.
    So the numbers for trafficking cases are going up. I do not 
think that is because the problem is getting worse. I think it 
is because we are getting better at naming it and identifying 
it. So it is very hard to say which way it is going.
    The report, though, documents government efforts to combat 
this crime. And I believe government efforts are on the 
positive side of that arch, that they are increasing.
    Senator Kaine. Any additional comments to that, Mr. 
Sullivan, on Latin America?
    Mr. Sullivan. No, I think the Ambassador has summed it up 
very well.
    Senator Kaine. Thank you.
    Mr. Chair, I have no other questions. I appreciate the 
witnesses, for your commitment and for your testimony.
    Senator Cardin. I think we are about ready to wrap up.
    The Chairman. Thank you. I am sorry. We have multiple 
things happening right now, none more important than this.
    We will keep the record open until the close of business 
Monday.
    The Chairman. We thank you for your testimony, for coming 
back for this, and for staying through the report's great 
production.
    We look forward to continuing to work with you on this 
issue in the department, and all the outstanding people that 
Ambassador Coppedge referred to.
    We look forward to a continuing relationship with you in 
other ways, we hope.
    With that, the meeting is adjourned. Thank you.
    [Whereupon, at 10:36 a.m., the hearing was adjourned.]

              Additional Material Submitted for the Record

          Exclusive: Overruling diplomats, U.S. to drop Iraq, 
                   Myanmar from child soldiers' list

Jason Szep, Matt Spetalnick


    WASHINGTON (Reuters) [June 23, 2017]--In a highly unusual 
intervention, Secretary of State Rex Tillerson plans to remove Iraq and 
Myanmar from a U.S. list of the world's worst offenders in the use of 
child soldiers, disregarding the recommendations of State Department 
experts and senior U.S. diplomats, U.S. officials said.
    The decision, confirmed by three U.S. officials, would break with 
longstanding protocol at the State Department over how to identify 
offending countries and could prompt accusations the Trump 
administration is prioritizing security and diplomatic interests ahead 
of human rights.
    Tillerson overruled his own staff's assessments on the use of child 
soldiers in both countries and rejected the recommendation of senior 
diplomats in Asia and the Middle East who wanted to keep Iraq and 
Myanmar on the list, said the officials, who have knowledge of the 
internal deliberations.
    Tillerson also rejected an internal State Department proposal to 
add Afghanistan to the list, the three U.S. officials said.
    One official said the decisions appeared to have been made 
following pressure from the Pentagon to avoid complicating assistance 
to the Iraqi and Afghan militaries, close U.S. allies in the fight 
against Islamist militants. The officials spoke on condition of 
anonymity.
    Foreign militaries on the list can face sanctions including a 
prohibition on receiving U.S. military aid, training and U.S.-made 
weapons unless the White House issues a waiver.
    Human rights officials expressed surprise at the delisting, which 
was expected to be announced on Tuesday, the officials said, as part of 
the State Department's annual Trafficking in Persons (TIP) Report.
    A State Department official said the TIP report's contents were 
being kept under wraps until its release and the department ``does not 
discuss details of internal deliberations.''
    The Pentagon did not immediately respond to a request for comment.
    Under the Child Soldiers Prevention Act of 2008, the U.S. 
government must be satisfied that ``no children are recruited, 
conscripted or otherwise compelled to serve as child soldiers'' in 
order for a country to be removed from the list and U.S. military 
assistance to resume.
    In the lead-up to Tuesday's report, the State Department's Bureau 
of Democracy, Human Rights, and Labor, which researches the issue and 
helps shape U.S. policy on it, along with its legal office and 
diplomatic bureaus in Asia and the Middle East concluded that the 
evidence merited keeping both countries on the list, the officials 
said.
    Officials said that although the report had been finalized there 
was always the possibility of last-minute changes.
Betraying Children
    Human Rights Watch said removing Myanmar, formerly known as Burma, 
from the list would be a ``completely premature and disastrous action 
that will effectively betray more children to continued servitude and 
rights abuses.''
    The decision also would put the Trump administration at odds with 
the United Nations, which continues to list the Myanmar military, along 
with seven ethnic armed groups, on its list of entities using and 
recruiting child soldiers.
    ``What's particularly astonishing is this move ignores that the 
U.N. in Burma says that it is still receiving new cases of children 
being recruited'' by the Myanmar military, said Phil Robertson, deputy 
Asia director at Human Rights Watch.
    Rights groups have long accused Myanmar of using child soldiers. 
Bordering both China and India, Myanmar is also of growing strategic 
importance to the United States at a time of increasing encroachment in 
the region by China, which has sought closer relations with its 
neighbor.
    Iraq, which has received more than $2 billion in U.S. arms and 
training over the last three years, was added to the State Department's 
``Child Soldier Prevention Act List'' in 2016. However, the flow of 
U.S. assistance has continued.
    Former President Barack Obama handed out full or partial waivers 
regularly, including last year to Iraq, Myanmar, Nigeria, South Sudan 
and others out of 10 countries on the list.
    Last year's State Department report said some militias of Iraq's 
Popular Mobilization Forces (PMF), an umbrella group of mostly Shi'ite 
Muslim factions with ties to the Iraqi government and backed by Iran, 
``recruited and used child soldiers.''
    The report said that despite the PMF being funded by the 
government, Baghdad struggled to control all of its factions.
    ``The government did not hold anyone accountable for child 
recruitment and use by the PMF and PMF-affiliated militias.''
    Human Rights Watch said in January that it had learned that 
militias had been recruiting child soldiers from one Iraqi refugee camp 
since last spring.
    The broader TIP report, the first of Trump's presidency, is sure to 
be closely scrutinized for further signs that under his ``America 
First'' approach there will be little pressure brought to bear on 
friendly governments, especially strategically important ones, for 
human rights violations at home.
    The Obama administration, while more vocal about political 
repression around the world, also faced criticism from human rights 
groups and some U.S. lawmakers that decisions on annual human 
trafficking rankings had become increasingly politicized.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Hon, John J. Sullivan by Senator Marco Rubio

    Question 1. What is the State Department's plan for special envoys 
and ambassadors-at-large? Does the Department intend to keep those for 
the Ambassador-at-Large for Trafficking in Persons, Ambassador-at-Large 
for International Religious Freedom, and the Special Envoy to Monitor 
and Combat Anti-Semitism?

    Answer. We are evaluating the utility of the nearly 70 Ambassadors-
at-Large, Special Representatives or Special Envoys within the 
structure of the U.S. Department of State. We want to ensure 
responsibility for each issue is appropriately placed and aligned with 
the resources needed to achieve the mission.
    The Ambassador-at-Large for Monitoring and Combating Trafficking in 
Persons, the Ambassador-at-Large for International Religious Freedom, 
and the Special Envoy to Monitor and Combat Anti-Semitism are 
statutorily-required positions.

    Question 2. How does the administration plan to use the TIP report 
to engage with foreign governments on addressing human trafficking 
concerns? What is the State Department's strategy and plans?

    Answer. Fighting modern slavery is a priority for Secretary 
Tillerson the State Department. We take a whole-of-government approach 
to addressing human trafficking. Throughout the year, Department 
officials and staff in the TIP Office, regional bureaus, and U.S. 
missions around the world encourage foreign governments at senior 
levels to implement recommendations outlined in the TIP Report. The 
recommendations outlined in the TIP Report form the backbone of our 
foreign diplomatic engagement. In public and in private, these are the 
priorities we encourage foreign governments to address as they work to 
combat human trafficking. The recommendations guide our dialogue with 
NGOs and our foreign assistance programming related to human 
trafficking.
    The State Department offers a variety of training and technical 
assistance to foreign governments, international organizations, and 
civil society groups to enhance awareness of and more effectively 
address human trafficking. U.S. officials highlight efforts to address 
human trafficking via public diplomacy initiatives, speeches, and media 
interviews. Further, as human trafficking is a crime that intersects 
with a variety of other issues, including law enforcement capacity, 
corruption, labor rights, and migration, the Department integrates 
human trafficking priorities into all appropriate forums, with the goal 
of enhancing and deepening the global response to this crime.



                               __________


    Response to an Additional Questions for the Record Submitted to 
            Hon. John J. Sullivan by Senator Robert Menendez

Child Soldiers Prevention Act List
    Question 1.  Secretary Sullivan, at the hearing I mentioned a June 
23 Reuters article that suggested Secretary Tillerson rejected the 
advice of State Department experts and removed Iraq and Myanmar from 
the Child Soldiers Prevention Act List and also rejected a staff 
proposal to add Afghanistan to that list. Please explain how Secretary 
Tillerson arrived at his determination with regard to these three 
countries in a manner consistent with the legal requirements of the 
Child Soldiers Prevention Act.

    Answer. The Secretary took the information presented to him through 
the TIP Report process that generated the recommendations to him, 
assessed the credibility of the information in his judgment, and 
reached his determination with respect to whether the facts justified a 
listing in those three cases.
    For each of these determinations, the Secretary makes his own 
independent judgment.



                               __________


     Responses to Additional Questions for the Record Submitted to 
   Hon. John J. Sullivan and Hon. Susan Coppedge by Senator Tim Kaine

National Intelligence Estimate (NIE) on Human Trafficking
    Question 1. At the January 2016 President's Interagency Task Force 
(PITF) meeting, DNI James Clapper reported that the National 
Intelligence Council intends to issue its first-ever National 
Intelligence Estimate (NIE) on human trafficking this summer. What is 
the status of this NIE? What key trends have emerged thus far? How will 
these trends be incorporated, if at all, into the 2018 TIP Report 
analysis of the current state of global human trafficking problems?

    Answer. The National Intelligence Estimate (NIE) on Human 
Trafficking is in preparation. Any specific questions on its status or 
content should be referred to the Office of the Director of National 
Intelligence, National Intelligence Council. Any trends emerging from 
the National Intelligence Estimate will serve as background information 
for the Office to Monitor and Combat Trafficking in Persons but will 
not be incorporated into the annual Trafficking in Persons Report as 
the NIE's content will be classified.

Rank Determination for Contentious Cases
    Question 2. What were the five cases elevated to Secretary 
Tillerson for a final TIP ranking determination? Were Burma, Iraq, and 
Afghanistan's placement on the Child Soldiers Act Protection List 
considered within that group? Can you provide the legal justification 
for the removal of Burma and Iraq from the 2017 list?

    Answer. As a matter of policy, the Department does not discuss 
details of internal deliberations. It is critical that Department 
officials are able to speak freely and frankly during the deliberative 
process, which ultimately contributes to the integrity of the Report 
and the strength of tier ranking and listing decisions. Differences of 
opinion within the Department are not unusual. Important policy 
decisions benefit from robust discussion and a diversity of views; this 
is also true for the process leading to a final Trafficking in Persons 
Report. The Secretary drew upon the expertise of the entire Department 
to ensure the inclusion of different perspectives in reviewing the 
facts in the context of the Trafficking Victims Protection Act (TVPA) 
and Child Soldiers Prevention Act (CSPA) criteria to inform his 
decisions. All final decisions are made by the Secretary, who reviewed 
the facts presented, made judgments as to the credibility of the 
information, and determined whether the facts ultimately justified a 
particular tier ranking or listing.

    Question 3. Last year's State Department report said some militias 
of Iraq's Popular Mobilization Forces (PMF), ``recruited and used child 
soldiers' and that ``the government did not hold anyone accountable for 
child recruitment and use by the PMF and PMF-affiliated militias.'' 
What is the Department's strategy for addressing abuses associated with 
the PMF and supporting efforts to disband volunteer militias following 
the defeat of ISIS from major cities in Iraq?

    Answer. The Department remains deeply concerned about reports by 
the U.N., NGOs, and media that some of Iraq's Popular Mobilization 
Forces (PMF) and other various militia and tribal groups who 
volunteered to assist in the defense of Iraq, specifically the defeat 
of ISIS, recruited and used children under the age of 18 in operations 
in Fallujah and other areas of the country, while PMF-affiliated social 
media sites continue to celebrate the service and sacrifice of child 
soldiers.
    The Popular Mobilization Committee (PMC) Law that Iraqi Prime 
Minister Haider Abadi signed into law in December 2016, formalized the 
status of the PMC as an umbrella organization for the PMF located in 
the Prime Minister's Office and recognized PMFs under PMC control as a 
component of the Iraqi armed forces. The law intends to solidify and 
enhance the Government of Iraq's (GoI) operational control over all PMF 
once it is fully implemented. We expect that the Iraqi government will 
continue to maintain oversight over all units organized under the PMC 
including investigating reports of child soldiers, and holding those 
responsible accountable, as appropriate.
    As the first recommendation in the 2017 Trafficking in Persons 
(TIP) Report indicates, the Department continues strongly to urge the 
GOI to make efforts to stop the recruitment and use of children by the 
PMF, militias, and tribal forces, hold complicit officials accountable 
for child soldiering, and provide protection services for child 
soldiers. The Department will continue to urge the GOI to vigorously 
implement its law that prohibits voluntary recruitment of any person 
under age 18 into the governmental armed forces, including governmental 
paramilitary forces, militia groups, or other armed groups. The 
Department will also work with the GOI to ensure trafficking victims 
are not punished for crimes committed as a direct result of being 
subjected to human trafficking, including child soldiering, and to 
increase adequate and unhindered access to protection services for 
victims of all forms of trafficking in Iraq and the Iraqi Kurdistan 
Region (IKR).



                               __________


     Responses to Additional Questions for the Record Submitted to 
               Hon. Susan Coppedge by Senator Marco Rubio

    Question 1. On the Tier Ranking of Countries for the TIP Report: 
Could you explain the State Department's assessment of Malaysia, Qatar, 
and Burma that ultimately led to their tier upgrading on the TIP report 
this year? What specific steps have these countries taken to eliminate 
human trafficking?

    Answer. In the case of Malaysia, the government demonstrated 
increasing efforts by significantly expanding trafficking 
investigations, prosecutions, and convictions. The government nearly 
quadrupled the number of trafficking investigations compared to last 
year (158 to 581), and the number of trafficking convictions increased 
significantly (7 to 35). Officials also strengthened enforcement of the 
law prohibiting passport retention, convicting 17 employers for 
unauthorized retention of passports, compared to zero during the 
previous year. In 2016, the government reported identifying 3,411 
potential trafficking victims, of which it confirmed 1,558 as 
trafficking victims, a marked increase over the 305 victims confirmed 
in 2015. To coordinate anti-trafficking operations, the government 
established a new interagency law enforcement taskforce, to which 17 
officers from seven agencies were assigned and trained on investigative 
tactics. The taskforce conducted a large and successful labor 
trafficking raid in March, and its mandate was subsequently extended 
from six months to two years. During the reporting period, Malaysian 
officials provided three NGOs with 483,000 RM ($107,690)--ten times 
more than was provided in the previous year--to conduct various 
programs and activities with trafficking shelter residents, and also 
increased its funding allocation to 5.3 million RM ($1.18 million), up 
from 4.6 million RM ($1.03 million) the previous year, to the Ministry 
of Women, Family, and Community Development to operate government 
facilities for trafficking victims. We continue to urge the Malaysian 
government to facilitate trafficking victims' freedom of movement and 
to increase the effectiveness of trafficking prosecutions, including of 
complicit officials.
    In the case of Qatar, the government demonstrated increasing 
efforts to meet the minimum standards during the reporting period 
through initiatives such as establishing a coordinating body to oversee 
and facilitate anti-trafficking initiatives and enacting substantial 
reforms to the sponsorship system to reduce vulnerability to forced 
labor. The Wage Protection System, which provides workers with their 
own bank accounts and flags problems related to payment for follow-up, 
now covers more than two million workers and significant progress has 
been made towards implementing a new electronic contracting system and 
new labor dispute panels designed to greatly accelerate resolution of 
labor cases. The government gave Cabinet approval to new legislation-
still awaiting final signature-to better protect domestic workers and 
strengthen enforcement against passport retention. The Qatari 
government also increased the number of prosecutions and convictions 
for trafficking-related offenses. Under various sections of the labor 
code, the Public Prosecutor's Office convicted up to 19 companies for 
labor law contraventions, including failure to comply with work hour 
limitations, grant a mandatory rest day, or pay overtime. Labor courts 
handed down 2,039 judgments in 2016, including 1,201 cases of forced 
payments of denied or delayed wages and benefits, in addition to fines, 
which reached as high as 100,000 Qatari riyal ($27,460), according to 
news reports. We will continue to urge Qatar over the next year to 
build up and expand on these achievements.
    In the case of Burma, key achievements during the reporting period 
merited an upgrade to Tier 2 Watch List. These included progress to 
eliminate the recruitment and use of child soldiers, more officers 
dedicated to anti-trafficking law enforcement units, and the first 
prosecutions of government officials for human trafficking since the 
enactment of its 2005 anti-trafficking law. The government strengthened 
efforts to identify victims in vulnerable border areas, reached its 
goal of appointing human trafficking case workers to all social welfare 
offices throughout the country, and continued cooperation with 
international partners to identify and demobilize children recruited 
into the military's ranks, culminating in the release of 112 
individuals recruited as children. Much work remains to be done, 
however. The government continued to require troops to source their own 
labor and supplies from local communities, increasing the prevalence of 
forced labor; did not sufficiently penalize military officials who 
engaged in child soldier recruitment-a problem that persisted during 
the reporting period; and prevented the U.N. from playing a 
constructive role in bringing to an end the recruitment and use of 
children by ethnic armed groups. We continue to urge the Government of 
Burma to address these issues.

    Question 2. Given the allegations of politicization of the 2015 
Report, what steps is the TIP office taking to restore and ensure 
credibility to TIP Report?

    Answer. The White House and the State Department share Congress' 
commitment to maintaining the integrity of the TIP Report. The staff in 
the Office to Monitor and Combat Trafficking in Persons (TIP Office) 
work year-round with colleagues across the Department to gather 
information from embassies, foreign governments, nongovernmental and 
international organizations, and a full array of open sources to 
produce an accurate and objective Trafficking in Persons (TIP) Report.
    The final country narratives and rankings reflect the Department's 
best assessment of governments' efforts to meet with minimum standards 
to eliminate human trafficking, documenting the successes and 
shortcomings of government anti-trafficking efforts. They represent an 
extensive and rigorous whole-of-department effort. The Secretary of 
State continues to approve all country narratives and tier rankings.
    On December 5, 2016, the General Accountability Office (GAO) 
released a report assessing the TIP Report. While noting the Department 
has made improvements since the GAO's last study in 2006, the new 
report made four recommendations ``to improve the transparency and 
clarity of the Trafficking in Persons Report and improve its usefulness 
as a diplomatic tool to encourage countries to address trafficking.'' 
The Department concurred with all four recommendations and has 
implemented changes to the 2017 TIP Report to address the 
recommendations. It is our hope these changes make the basis of a given 
tier ranking more clear.
    The Department has and will continue to review the process for 
producing an honest and unbiased TIP Report that advances efforts to 
combat modern slavery. Ultimately, the purpose of the Report is to 
prompt governments to change and improve anti-trafficking efforts. The 
Department continuously reviews how the Report can even more 
effectively motivate tangible progress around the world. The Department 
remains committed to maintaining the Report's gold standard reputation.

    Question 3. On Labor Trafficking: Of the 20.9 million trafficking 
victims worldwide, the International Labor Organization (ILO) estimates 
that 68 percent are trapped in labor trafficking. Yet, only 8 percent 
of the 9,071 convictions reported worldwide last year were labor cases. 
How is J/TIP working to ensure that more labor cases are identified and 
prosecuted?

    Answer. The Department urges governments to combat all forms of 
human trafficking, including both sex and labor trafficking. As the 
data suggests, law enforcement efforts in response to human trafficking 
are inadequate to the scale of the problem, and efforts to combat labor 
trafficking, in particular, are disproportionately low. To adequately 
address labor trafficking, governments must make efforts across the 
3Ps: prosecuting traffickers, protecting and empowering victims, and 
preventing future trafficking crimes. Through our robust bilateral 
diplomacy, active engagement in multilateral fora, foreign assistance, 
and partnerships with civil society and the international business 
community, the Department uses all the tools at its disposal to 
motivate governments to address forced labor and increase their 
capacity to do so.
    Through its foreign assistance programming, the Department seeks to 
build the capacity of local law enforcement, judges, prosecutors, 
magistrates, and service providers to combat labor trafficking, 
including through victim identification, investigation and prosecution 
of trafficking cases, appropriate referral of victims for services, and 
education on relevant domestic and international legal frameworks. 
Programs aim to build ties between law enforcement and prosecutors to 
enhance understanding of key elements necessary for the successful 
prosecution of trafficking cases. The TIP Office seeks to support 
programs that include a `Train the Trainer' element to advance 
sustainability and local ownership of training efforts, and that 
instill a victim-centered approach to all interactions with trafficking 
victims.
    The Department will continue to build a cadre of criminal justice 
actors globally who better understand how to effectively identify 
victims and prosecute human trafficking cases, including labor 
trafficking cases, while pressing governments to end the impunity of 
traffickers and strengthen and enforce legal frameworks where needed. 
We will also continue to urge governments--including our own--to pursue 
robust identification and prosecution of labor trafficking cases.
    The TIP Office is also engaged on reducing the risk of forced labor 
in global supply chains. For example, in an effort to assist federal 
contractors, procurement officials, and other companies understand the 
risks of human trafficking in global supply chains, the TIP Office 
partnered with NGO partners to develop the Responsible Sourcing Tool 
(www.responsiblesourcingtool.org). The site includes extensive research 
on 11 key sectors and 43 commodities at risk for trafficking or 
trafficking-related activities, and 10 comprehensive risk-management 
tools.

    Question 4. On Cuba: Cuba's tier ranking was elevated to Tier 2 
Watch List in 2015 as the previous administration was normalizing 
relations with Cuba. However, prior to 2015, Cuba had been consistently 
ranked a Tier 3 country in the TIP Report. The U.N. Special Rapporteur 
on Trafficking in Persons visited Cuba in April 2017 and described 
Cuba's anti-trafficking efforts as ``at its initial stage:''

   To your knowledge, has the Cuban government followed through on any 
        of those recommendations?
   Are there any specific actions that the Cuban government has taken 
        this year to eliminate human trafficking from the island?
   Does the Department have a copy of the Cuban government's National 
        Action Plan? If so, would you please provide me with a copy?

    Answer. During the reporting year, the Government of Cuba did not 
fully meet the minimum standards for the elimination of trafficking; 
however, it made significant efforts to do so. For the fourth 
consecutive year, the government reported continued efforts to address 
sex trafficking, including the prosecution and conviction of 17 sex 
traffickers in 2015 (the most recent available data) and the provision 
of services to 11 victims in those cases. The government coordinated 
anti-trafficking efforts across government ministries and investigated 
indicators of trafficking exhibited by foreign labor brokers recruiting 
Cuban citizens.
    As previously submitted to the Senate Foreign Relations Committee, 
the Department's justification for the waiver provides an overview of 
the plan. The Government of Cuba published a national anti-trafficking 
action plan for 2017 through 2020 with the objectives of amending 
legislation to comprehensively address trafficking in persons; 
strengthening law enforcement responsiveness and investigative 
effectiveness, including for forced labor; increasing public awareness 
of trafficking; providing more differentiated government services to 
the most vulnerable trafficking victims, particularly, children, senior 
citizens, and people with disabilities; engaging civil society and 
community groups in supporting the government's work to prevent 
trafficking; and ensuring that Cuba adheres to international best 
practices in combatting trafficking. The written plan directs specific 
agencies to lead implementation of specific objectives. We do not 
routinely share foreign government documents that have been provided to 
the U.S. government in confidence. Doing so could potentially lessen 
foreign governments' willingness to provide comprehensive information 
essential for the TIP Report's annual assessments.

    Question 5. On China: The 2017 TIP report notes that ``according to 
unverified reports,'' forced labor continues in government-run 
administrative detention centers, including compulsory drug 
detoxification centers.

          a. Has the U.S. Government requested site visits to observe 
        conditions in these facilities?
          b. Has the U.S. Government directly questioned the Chinese 
        Government as to the veracity of these reports of forced labor 
        in administrative detention centers and, if so, what was the 
        Chinese Government's response?
          c. Does the Office to Monitor and Combat Trafficking shares 
        its factual information with relevant law enforcement agencies 
        within the U.S. to prevent the importation of goods made with 
        forced labor?

    Answer:
          a. Our embassy in Beijing has made efforts to visit a 
        compulsory drug treatment center for over a year in the context 
        of China's Drug Demand Reduction efforts. Embassy officials 
        were recently advised that the Ministry of Justice has approved 
        a visit.
          b. We have engaged frequently and at high levels of 
        government on the issue of forced labor writ large, including 
        in administrative detention centers. We have raised our 
        concerns that despite the 2013 decision to abolish ``re-
        education through labor'' there have been reports that forced 
        labor continued in drug rehabilitation facilities and 
        administrative detention centers. Chinese officials have 
        declined to provide information in response to questions about 
        these reports. We will continue to engage on these reports.
          c. The TIP Office engages regularly with interagency 
        colleagues, including the law enforcement community, on 
        trafficking issues. Through the President's Interagency Task 
        Force to Monitor and Combat Trafficking in Persons (PITF), a 
        cabinet-level entity composed of 15 departments and agencies 
        across the federal government and chaired by the Secretary of 
        State, the State Department participates in interagency 
        collaboration on efforts to combat trafficking in persons. The 
        TIP Office also participates in the Senior Policy Operating 
        Group (SPOG), which consists of senior officials designated as 
        representatives of the PITF members and is chaired by the 
        Ambassador-at-Large to Monitor and Combat Trafficking in 
        Persons. This ensures a whole-of-government approach to the 
        U.S. Government's anti-trafficking work. The Departments of 
        Justice and Homeland Security also participate in both of these 
        groups. The interagency is currently working with the National 
        Security Council to develop more effective ways of sharing 
        information on human trafficking and labor issues, specifically 
        for the purposes of preventing the importation of goods made 
        with forced labor.



                               __________


     Responses to Additional Questions for the Record Submitted to 
             Hon. Susan Coppedge by Senator Robert Menendez

    Question 1. Inconsistent Analysis on the Scale of Trafficking: In 
some of the country narratives, such as those for Pakistan, Mexico, and 
Thailand, the Report noted that certain government efforts, like labor 
inspections or resources provided for victim shelters, were inadequate 
compared to the scale of the trafficking problem in those countries. 
However, most of the country narratives, even for other countries with 
significant trafficking problems like Malaysia, do not include this 
analysis.

   Why did some country narratives note the discrepancy between 
        government efforts and the scale of the problem while others 
        did not, even though there is a legal requirement to make this 
        evaluation when determining which countries should be placed on 
        Tier 2 or Tier 2 Watch List?

    Answer. In every country included in the Trafficking in Persons 
Report, the Department evaluates the government's anti-trafficking 
efforts in accordance with the Minimum Standards. This includes 
evaluations of whether and how effectively authorities are combating 
all types of human trafficking using the 3P framework of prosecution, 
protection, and prevention. While the scale of trafficking is 
specifically relevant in making the distinction between Tier 2 and Tier 
2 Watch List countries and may be specifically cited in only some 
country narratives, the context in which governments make their efforts 
to combat trafficking is an element of the Department's assessment for 
every country in the TIP Report.

    Question 2. ``Increasing Efforts'' as a Justification for Removal 
from Tier 2 Watch List: 22 USC 7107(b)(2)(A)(iii) defines Tier 2 Watch 
List as ``Countries that have been listed pursuant to paragraph (1)(B) 
pursuant to the current annual report, where--
          ``(I) the absolute number of victims of severe forms of 
        trafficking is very significant or is significantly increasing;
          ``(II) there is a failure to provide evidence of increasing 
        efforts to combat severe forms of trafficking in persons from 
        the previous year, including increased investigations, 
        prosecutions and convictions of trafficking crimes, increased 
        assistance to victims, and decreasing evidence of complicity in 
        severe forms of trafficking by government officials; or
          ``(III) the determination that a country is making 
        significant efforts to bring themselves into compliance with 
        the minimum standards was based on commitments by the country 
        to take additional future steps over the next year.''

   Ambassador Coppedge, at the hearing you testified that you believe 
        that Malaysia has a very significant number of trafficking 
        victims, thereby conceding that Malaysia meets the criterion of 
        part (I) of the Tier 2 Watch List definition. However, the TIP 
        report states that ``The government demonstrated increasing 
        efforts compared to the previous reporting period; therefore, 
        Malaysia was upgraded to Tier 2.''

          a. Please provide the legal justification, with specific 
        references to the statute, for removing Malaysia from Tier 2 
        Watch List.
          b. Please provide the legal justification, with specific 
        references to the statute, for removing any country from Tier 2 
        Watch List based solely on increasing efforts during the 
        reporting period.
          c. If there is a country that otherwise meets the definition 
        for Tier 2 but where "the absolute number of victims of severe 
        forms of trafficking is very significant or is significantly 
        increasing", is it the Administration's position that such a 
        country may be given a different ranking other than Tier 2 
        Watch List based on ``increasing efforts,'' ``significant 
        efforts,'', or other factors? If so, please provide the legal 
        justification, with specific references to the statute, that 
        allows the State Department to consider such factors in 
        overriding the requirements of 22 USC 7107(b)(2)(A)(iii).

    Answers:
          a. The Secretary of State determined the Malaysian 
        government's efforts over the 2017 reporting period did not 
        meet the minimum standards for the elimination of trafficking, 
        but that it is making significant efforts to do so, the 
        statutory definition of a Tier 2 country (22 U.S.C. 
        7107(b)(1)(B)). In 2016, Malaysia was ranked Tier 2 Watch List 
        because the government did not demonstrate overall increasing 
        anti-trafficking efforts compared to the previous reporting 
        period according to the statutory definition (22 USC 
        7107(b)(2)(A)(iii)). In 2017, we assessed that the government 
        had made increasing efforts by significantly expanding 
        trafficking investigations, prosecutions, and convictions. The 
        government nearly quadrupled the number of trafficking 
        investigations compared to last year (158 to 581), and the 
        number of trafficking convictions increased significantly (7 to 
        35). Officials also strengthened enforcement of the law 
        prohibiting passport retention, convicting 17 employers for 
        unauthorized retention of passports, compared to zero during 
        the previous year. In 2016, the government reported identifying 
        3,411 potential trafficking victims, of which it confirmed 
        1,558 as trafficking victims, a marked increase over the 305 
        victims confirmed in 2015. To coordinate anti-trafficking 
        operations, the government established a new interagency law 
        enforcement taskforce, to which 17 officers from seven agencies 
        were assigned and trained on investigative tactics. The 
        taskforce conducted a large and successful labor trafficking 
        raid in March, and its mandate was subsequently extended from 
        six months to two years. During the reporting period, Malaysian 
        officials provided three NGOs with 483,000 RM ($107,690)--ten 
        times more than was provided in the previous year-to conduct 
        various programs and activities with trafficking shelter 
        residents, and also increased its funding allocation to 5.3 
        million RM ($1.18 million), up from 4.6 million RM ($1.03 
        million) the previous year, to the Ministry of Women, Family, 
        and Community Development to operate government facilities for 
        trafficking victims. We continue to urge the Malaysian 
        government to facilitate trafficking victims' freedom of 
        movement and to increase the effectiveness of trafficking 
        prosecutions, including of complicit officials.
          b. The Trafficking Victims Protection Act instructs the 
        Secretary of State to list those countries "making significant 
        efforts to bring themselves into compliance" with the minimum 
        standards as Tier 2 or Tier 2 Watch List. The Secretary must 
        list a country on Tier 2 Watch List rather than Tier 2 when any 
        of three "Special Watch List" factors exist: the absolute 
        number of victims is very significant or significantly 
        increasing; there is a failure to provide evidence of 
        increasing efforts; or the determination of significant efforts 
        is based on commitments to take efforts over the coming year. 
        Where these factors are not present, any country determined by 
        the Department to be making significant efforts to bring 
        themselves into compliance with the minimum standards will be 
        placed on Tier 2.
          c. In each TIP Report, the Department rigorously applies the 
        statutory criteria and standards laid out by the Trafficking 
        Victims Protection Act (TVPA). The Department strives to make 
        the Report as accurate and objective as possible, documenting 
        the successes and shortcomings of government anti-trafficking 
        efforts. A country is placed on Tier 2 when the government does 
        not fully comply with the TVPA's minimum standards but is 
        making significant efforts to bring themselves into compliance. 
        A country is placed on Tier 2 Watch List when: (1) the absolute 
        number of victims is very significant or significantly 
        increasing, (2) there is a failure to provide evidence of 
        increasing efforts, or (3) the determination of significant 
        efforts is based on commitments to take efforts over the coming 
        year. Each of these factors is evaluated independently and none 
        override another. The evaluation of whether a country has a 
        very significant number of trafficking victims comes with 
        special challenges, as human trafficking is a hidden crime and 
        there is no exact data reflecting the total number of victims 
        in any country and sometimes, the increasing number of 
        identified victims represents increased effectiveness in victim 
        identification, rather than an increase in the magnitude of 
        trafficking in persons in a country.

    Question 3. Malaysia: In its 2016 report, The Human Rights 
Commission of Malaysia cited figures from the Malaysian Immigration 
Department that showed there were 118 deaths in immigration detention 
centers in 2015 and 2016. Many of these were likely refugees or victims 
of human trafficking, and died from preventable illnesses such as 
pneumonia. Furthermore, the data shows that the detainees from Myanmar, 
who are more likely to be trafficking victims, fared worse than people 
from other countries. None of this was in the last two TIP reports. 
Reuters reported this story before the close of this year's reporting 
period, and the data itself clearly relates to the government's 
trafficking efforts over the last year.

          a. Ambassador Coppedge, are you familiar with this report 
        from Malaysia's Human Rights Commission?
          b. Do you believe this information is credible?
          c. Did the Malaysian government share these figures with the 
        State Department at any point? If so, when? And why was this 
        not included in either of the last two TIP reports?
          d. What evidence does the State Department have of increasing 
        efforts by the Malaysian government for prosecuting complicit 
        officials?
          e. Does the State Department consider the granting of 6 work 
        visas and 12 passes to move freely evidence of ``increasing 
        efforts'' by the Malaysian government?

    Answers:
          a. I am aware of the report from the Malaysian Human Rights 
        Commission.
          b. Yes, although we cannot verify every data point contained 
        therein.
          c. The Malaysian Human Rights Commission published its report 
        about immigration detention centers in April 2017. The 
        Department's 2017 TIP Report noted the severe over-crowding of 
        shelters for trafficking victims and the Department has engaged 
        the Malaysian government on appropriate shelter conditions for 
        trafficking victims. While you correctly note some migrants in 
        the immigration detention centers are likely trafficking 
        victims, there is an important distinction between immigration 
        detention centers and shelters for trafficking victims. We 
        continue to urge the Malaysian government to screen the 
        vulnerable migrant worker population for indicators of 
        trafficking and to provide appropriate care services to those 
        identified as trafficking victims. The number of non-Malaysians 
        placed into TIP victim shelters increased by more than 200 
        percent this year, suggesting improved victim screening.
          The 2017 TIP Report notes that after discovering a scheme by 
        immigration officials to manipulate the country's passport 
        control system to allow traffickers to operate undetected, the 
        government fired 15 officers, suspended 14, froze the salaries 
        of 8, and reassigned more than 60 others. However, none of 
        these officers were prosecuted or charged with criminal 
        offenses for what clearly were crimes that abet trafficking. 
        One important measure of whether a government is considered to 
        be making serious and sustained efforts to eliminate 
        trafficking in persons under the TVPA is whether it prosecutes, 
        convicts, and sentences complicit public officials.
          d. In 2017, we assessed that the Malaysian government made 
        increasing efforts by significantly expanding trafficking 
        investigations, prosecutions, and convictions. This included 
        renewed efforts to discipline, and in some cases, prosecute 
        government officials for complicity in human trafficking. 
        During the reporting period, the government detained 42 
        immigration and police officers for their involvement in 
        facilitating smuggling and trafficking crimes; authorities 
        prosecuted five of these officers and the cases remained 
        ongoing at the end of the reporting period. This was an 
        increase from zero officials implicated during the 2016 
        reporting period.
          e. After carefully weighing the totality of the Malaysian 
        government's efforts, the State Department determined the 
        Malaysian government to have made increasing efforts, given its 
        expanded prosecution efforts, sustained prevention measures, 
        and strengthened protection regime. We continue to urge the 
        Malaysian government to increase the number of trafficking 
        victims eligible to work and routinely to authorize victims of 
        trafficking freedom of movement.

    Question 3. We all remember the mass graves of 139 trafficking 
victims that were found on the border of Malaysia and Thailand in 2015. 
This year's TIP Report notes that the investigations into these camps 
yielded four convictions of foreigners in Malaysia on the charge of 
migrant smuggling. The report also states the no Malaysian nationals 
were convicted, much less any Malaysian government officials, some of 
whom must have been complicit given the scale and location of this 
trafficking operation. Around March 20, the Malaysian government freed 
12 police officers that were detained as part of this investigation.

          a. The report notes that official complicity and corruption 
        remains a problem in Malaysia, but why does it fail to evaluate 
        the government's efforts with respect to these 12 police 
        officers who were suspected to have played a role in the mass 
        graves case?
          b. Do you believe that this will deter other Malaysian 
        officials from colluding with trafficking syndicates?

    Answers:
          a. In March 2017, the government announced that 12 police 
        officers detained under the investigation had been freed in 
        2015, not in 2017 as originally reported by the Malaysian 
        media. The police officers had been detained for a few months 
        under the Prevention of Crime Act but then released due to 
        insufficient evidence. As it occurred well before the reporting 
        period and the government lacked evidentiary support for 
        further prosecution, the release was not included in the 2017 
        report.
          b. We continue to press the Malaysian government at the 
        highest levels on the need to criminally prosecute Malaysian 
        officials who are believed to be complicit in trafficking 
        offenses.

    Question 4. Prosecutions for Labor Trafficking: Of the 20.9 million 
trafficking victims worldwide, the ILO estimates that 68 percent are 
trapped in labor trafficking. Yet, only 8 percent of the 9,071 
convictions reported worldwide last year were labor cases. Labor 
traffickers operate with near impunity across the globe, in large part 
because of the increased resources it takes to recognize, investigate 
and prosecute these cases. How can J/TIP help build this expertise 
globally and ensure that more labor cases are identified and 
prosecuted?

    Answer. The Department urges governments to combat all forms of 
human trafficking, including both sex and labor trafficking. As the 
data suggests, law enforcement efforts in response to human trafficking 
are inadequate to the scale of the problem, and efforts to combat labor 
trafficking, in particular, are disproportionately low. To adequately 
address labor trafficking, governments must make efforts across the 
3Ps: prosecuting traffickers, protecting and empowering victims, and 
preventing future trafficking crimes. Through our robust bilateral 
diplomacy, active engagement in multilateral fora, foreign assistance, 
and partnerships with civil society and the international business 
community, the Department uses all the tools at its disposal to 
motivate governments to address forced labor and increase their 
capacity to do so.
    Through its foreign assistance programming, the Department seeks to 
build the capacity of local law enforcement, judges, prosecutors, 
magistrates, and service providers to address labor trafficking, 
including through victim identification, investigation and prosecution 
of trafficking cases, appropriate referral of victims for services, and 
education on relevant domestic and international legal frameworks. 
Programs aim to build ties between law enforcement and prosecutors to 
enhance understanding of key elements necessary for the successful 
prosecution of trafficking cases. The TIP Office seeks to support 
programs that include a ``Train the Trainer'' element to advance 
sustainability and local ownership of training efforts, and that 
instill a victim-centered approach to all interactions with trafficking 
victims.
    The Department will continue to fund programs that builds expertise 
among criminal justice experts globally who better understand how to 
properly identify victims and prosecute human trafficking cases, 
including labor trafficking cases, while directly pressing governments 
to end the impunity of traffickers and strengthen and enforce legal 
frameworks where needed. We will also continue to urge governments--
including our own--to pursue robust identification and prosecution of 
labor trafficking cases.
    The TIP Office is also engaged on reducing the risk of forced labor 
in global supply chains. For example, in an effort to assist federal 
contractors, procurement officials, and other companies understand the 
risks of human trafficking in global supply chains, the TIP Office 
partnered with NGO partners to develop the Responsible Sourcing Tool 
(www.responsiblesourcingtool.org). This web-based tool includes 
extensive research on 11 key sectors and 43 commodities at risk for 
trafficking or trafficking-related activities, and 10 comprehensive 
risk-management tools.

    Question 5. Importation of Goods made with Forced Labor: The United 
States currently imports an estimated $142 billion worth of goods that 
are likely to be made with forced labor, including $83.3 billion from 
countries ranked at the bottom-on Tier 3 or the Tier 2 Watch List--of 
the TIP Report. As corporations increasingly expand their operations in 
the global marketplace, how can J/TIP incentivize companies to protect 
their supply chains from forced labor?

    Answer. The TIP Office has been very engaged on the issue of forced 
labor in global supply chains. In fact, the introduction of the 2015 
TIP Report was dedicated to this topic, outlining the risks that many 
individuals, including migrants, face while seeking employment. It also 
addresses the role governments, the private sector, and civil society 
can play in mitigating the risks.
    One way the TIP Office makes it easier for the private sector to 
address human trafficking in corporate supply chains is by providing 
information and resources. For example, the Office partnered with NGOs 
to develop the Responsible Sourcing Tool 
(www.responsiblesourcingtool.org), a web-based tool that helps 
companies understand the risk of forced labor in their global supply 
chains. It includes extensive research on 11 key sectors and 43 
commodities at risk for trafficking or trafficking-related activities, 
and 10 comprehensive risk-management tools.
    The TIP Office is also a part of an effort to look at the impact of 
the USG's own purchasing power. Through the Procurement & Supply Chains 
Committee of the interagency Senior Policy Operating Group, the TIP 
Office is working on effective implementation of the Federal 
Acquisition Regulation, ``Ending Trafficking in Persons,'' which 
requires that companies doing business with the federal government 
prohibit certain activities that are known to facilitate human 
trafficking.
    Finally, the TIP Office engages directly with companies and NGOs 
working on this issue. Through direct engagement with the private 
sector and participation in multilateral dialogues and international 
conferences on supply chains and responsible business conduct, we are 
showing the private sector that the U.S. government is committed to 
combating forced labor in global supply chains.

                               __________


                                [all]
</pre></body></html>
